  AUDIT OF THE OFFICE OF JUSTICE PROGRAMS 

COOPERATIVE AGREEMENT ADMINISTERED BY THE 

    HEALTH FEDERATION OF PHILADELPHIA 

       PHILADELPHIA, PENNSYLVANIA

          U.S. Department of Justice 

        Office of the Inspector General 

                 Audit Division 


         Audit Report GR-70-14-004 

                 April 2014 

             AUDIT OF THE OFFICE OF JUSTICE PROGRAMS

           COOPERATIVE AGREEMENT ADMINISTERED BY THE

               HEALTH FEDERATION OF PHILADELPHIA

                   PHILADELPHIA, PENNSYLVANIA


                                 EXECUTIVE SUMMARY


       The Department of Justice (DOJ) Office of the Inspector General, Audit
Division, has completed an audit of a cooperative agreement awarded by the Office
of Justice Program’s (OJP) Office of Juvenile Justice and Delinquency Prevention
(OJJDP) to the Health Federation of Philadelphia (HFP), agreement number
2010-JW-FX-K011 and its supplements. The HFP was selected as one of ten
recipients to serve as a pilot for the Safe Start Promising Approaches Project
(S.E.L.F.). The purpose of the award was to test the efficacy of integrating S.E.L.F,
a theory-based trauma intervention model, with an existing home-based Early Head
Start Program to reduce the incidence and impact of children’s exposure to
violence, and to increase the protective factors afforded to children by
strengthening primary caregivers’ ability to provide safe, stable, nurturing
relationships. At the time of our audit, the HFP was awarded $750,000. 1

       The objective of our audit was to determine whether reimbursements claimed
for costs under the cooperative agreement were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the award. We also assessed the HFP program performance in
meeting the award-funded objectives and overall accomplishments.

        We reviewed the HFP’s compliance with key award conditions and found that
HFP did not meet all of the terms and conditions of the award. Specifically, we
found that the HFP charged the agreement for a budgeted amount instead of
amounts based on actual expenditures incurred for rent and utilities. The HFP
officials responded by saying it intended to reconcile budgeted to actual
expenditures semiannually. In our judgment, the use of budgeted amounts may
result in potentially inaccurate financial reporting. In addition, we determined that
the HFP reported inaccurate statistics on semi-annual progress reports because it
misinterpreted the questions within those reports and erroneously calculated
performance data. Because the HFP is participating in a pilot program with national
implications, and data collected is used to determine the effectiveness of the
program, we believe it is important to report complete and accurate data on the
progress reports.

       These items are discussed in detail in the findings and recommendations
section of the report. Our audit objectives, scope, and methodology appear in
Appendix I.


       1
         The award solicitation provided for continuation funding for up to 4-1/2 years based on
performance and availability of funds.


                                                  i
       We discussed the results of our audit with HFP officials and have included
their comments in the report, as applicable. Additionally, we requested a response
to our draft report from the HFP and OJP, and their responses are appended to this
report as Appendix II and III, respectively. Our analysis of both responses, as well
as a summary of actions necessary to close the recommendations can be found in
Appendix IV of this report.




                                         ii
                                      TABLE OF CONTENTS

INTRODUCTION ................................................................................. 1

Office of Juvenile Justice Delinquency and Prevention ................................ 1

Safe Start Promising Approaches Project.................................................. 2

Health Federation of Philadelphia ............................................................ 2

Our Audit Approach ............................................................................... 2

FINDINGS AND RECOMMENDATIONS ................................................. 4

Internal Control Environment ................................................................. 4

Personnel and Fringe Benefit Expenditures ............................................... 5

Other Grant Expenditures ...................................................................... 6

Budget Management and Control ............................................................ 6

Reporting ............................................................................................. 7

Drawdowns .......................................................................................... 8

Indirect Costs ....................................................................................... 8

Compliance with Other Award Conditions ................................................. 9

Program Performance and Accomplishments............................................. 9

Conclusion ......................................................................................... 10

Recommendations............................................................................... 10

APPENDIX I - OBJECTIVE, SCOPE, AND METHODOLOGY................... 11

APPENDIX II - HEALTH FEDERATION OF PHILADELPHIA

  RESPONSE TO THE DRAFT AUDIT REPORT................................... 13

APPENDIX III - OFFICE OF JUSTICE PROGRAMS RESPONSE

  TO THE DRAFT AUDIT REPORT .................................................... 15

APPENDIX IV - OFFICE OF THE INSPECTOR GENERAL
  ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO
  CLOSE THE REPORT ..................................................................... 18

                                      INTRODUCTION

        The Department of Justice (DOJ) Office of the Inspector General, Audit
Division, has completed an audit of a cooperative agreement awarded by the Office
of Justice Program’s (OJP) Office of Juvenile Justice and Delinquency Prevention
(OJJDP) to the Health Federation of Philadelphia (HFP), award number 2010-JWFX­
K011 and its supplements. The HFP was selected as one of ten recipients to serve
as a pilot for the Safe Start Promising Approaches Project (S.E.L.F.). The purpose
of the award was to test the efficacy of integrating S.E.L.F, a theory-based trauma
intervention model, with an existing home-based Early Head Start Program to
reduce the incidence and impact of children’s exposure to violence, and to increase
the protective factors afforded to children by strengthening primary caregivers’
ability to provide safe, stable, nurturing relationships. At the time of our audit, the
HFP was awarded $750,000. 2

       The objective of this audit was to determine whether reimbursements
claimed for costs under the cooperative agreement were allowable, supported, and
in accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the award. We also assessed the HFP program performance in
meeting the award’s objectives and overall accomplishments.

Office of Justice Programs

       The Office of Justice Programs (OJP), within the Department of Justice,
provides the primary management and oversight of the award we audited.
According to OJP’s website, its mission is to increase public safety and improve the
fair administration of justice across America through innovative leadership and
programs. OJP works in partnership with the justice community to identify the
most pressing crime-related challenges confronting the justice system and to
provide information, training, coordination, and innovative strategies and
approaches for addressing these challenges.

Office of Juvenile Justice Delinquency and Prevention

       The mission of the Office of Juvenile Justice Delinquency and Prevention
(OJJDP), a component of OJP, is to provide national leadership, coordination, and
resources to prevent and respond to juvenile delinquency and victimization.
According to OJJDP’s website, it supports states and communities in their efforts to
develop and implement effective and coordinated prevention and intervention
programs and to improve the juvenile justice system so that it protects public
safety, holds offenders accountable, and provides treatment and rehabilitative
services tailored to the needs of youth and their families.




       2
         The award solicitation provided for continuation funding for up to 4-1/2 years based on
performance and availability of funds.


                                                  1

Safe Start Promising Approaches Project

       According to project materials, the Safe Start Promising Approaches Project
was to support the development and study of practice enhancements and
innovations to prevent and reduce the impact of children’s exposure to violence in
their homes and communities. Ten continuation projects were to serve as the
practice pilots for a 10-site national evaluation using experimental and quasi-
experimental research design to test the effectiveness of new approaches to
improve outcomes for children exposed to violence. The national evaluation was
being conducted by RAND Corporation (nonprofit institution) and supported through
OJJDP research funding. The project was to help communities implement
collaborative and evidence-based practices across services.

Health Federation of Philadelphia

      According to its website, since 1983 the Health Federation of Philadelphia
(HFP) has served as a network of the community health centers in Southeastern
Pennsylvania, providing a forum for the region’s federally qualified health centers
and the Philadelphia Department of Public Health to collaborate and mobilize
resources for their shared goals of improving the health of the population by
expanding access to high quality care.

       The HFP mission statement says that building on its work with health
centers, HFP has developed additional programs and expertise. The HFP added a
training and technical assistance arm that supports capacity building within the
public health system and human service organizations throughout the Philadelphia
region. Through direct service programs, the HFP services some of the neediest
families in the Southeastern Pennsylvania community, focusing primarily on support
for young children and their families.

OIG Audit Approach

       We tested compliance with what we considered to be the most important
conditions of the cooperative agreement. Unless otherwise stated in our report, we
applied the OJP Financial Guide as our primary criteria during our audit. The OJP
Financial Guide serves as a reference manual assisting award recipients in their
fiduciary responsibility to safeguard award funds and ensure that funds are used
appropriately and within the terms and conditions of the award. Additionally, the
OJP Financial Guide cites applicable Office of Management and Budget (OMB) and
Code of Federal Regulations (CFR) criteria that we also considered in performing
our audit. We tested the HFP’s:

   •	 Internal control environment to determine whether the financial and
      accounting system and related internal controls were adequate to safeguard
      funds and ensure compliance with the terms and conditions of the grant.

   •	 Personnel and fringe benefit expenditures to determine whether the
      personnel and fringe benefit expenditures charged to the award were


                                          2

     allowable, supported, accurate, and whether positions were within the
     approved budget.

  •	 Other grant expenditures to determine whether the other costs charged to
     the cooperative agreement were allowable and adequately supported.

  •	 Budget management and control to determine whether the HFP adhered
     to the OJP-approved award budgets for the expenditure of award funds.

  •	 Reporting to determine whether the required periodic Federal Financial

     Reports and Progress Reports were submitted on time and accurately

     reflected award activity.


  •	 Drawdowns (requests for funding) to determine whether requests for 

     reimbursement, or advances, were adequately supported, and if the HFP 

     managed award receipts in accordance with federal requirements.


  •	 Indirect costs to determine whether appropriate indirect costs were

     charged to the cooperative agreement based on an approved rate.


  •	 Compliance with award special conditions to determine whether the HFP
     complied with the terms and conditions specified in the award documents.

  •	 Program performance and accomplishments to determine whether the
     HFP achieved award objectives and to assess performance and
     accomplishments.

     Where applicable, we also tested for compliance in the areas of matching
funds, program income, and monitoring of subgrantees. For this cooperative
agreement, we determined that matching funds were not required, the award-
funded programs generated no program income, and there were no subgrantees.




                                       3

                  FINDINGS AND RECOMMENDATIONS

      We reviewed the HFP’s compliance with key award conditions and
      found the HFP generally met the terms and conditions of the award
      governing most of the management areas we tested. However, we
      found that the HFP charged the award for a budgeted amount
      instead of actual expenditures incurred for rent and utilities. In our
      judgment, the use of budgeted amounts may result in potentially
      inaccurate financial reporting and unallowable costs. In addition,
      the HFP reported inaccurate statistics on the progress reports we
      reviewed.

Internal Control Environment

      Our audit included a review of the HFP’s accounting and financial
management system and Single Audit reports to assess the risk of non-compliance
with laws, regulations, guidelines, and the terms and conditions of the award. We
also interviewed management staff from the HFP and performed salary, fringe
benefit, and other expenditure transaction testing to further assess risk.

     According to the OJP Financial Guide, award recipients are responsible for 

establishing and maintaining an adequate system of accounting and internal

controls. An acceptable internal control system provides cost and property

controls to ensure optimal use of funds.


       From our discussion with the Finance Director we were told that the HFP
management believed an adequate system of internal controls was in place. In
conducting this audit, we evaluated the HFP’s internal controls that we considered
significant within the context of our audit objectives and found no reportable
issues.

Financial Management System

       The OJP Financial Guide, incorporating the Code of Federal Regulations
(CFR), requires recipients to maintain records to adequately identify the source and
application of award funds provided for financially supported activities. These
records must contain information pertaining to awards and authorizations,
obligations, unobligated balances, assets, liabilities, outlays or expenditures, and
income.

       We found the HFP maintained these records in a separate account. We
determined that this account tracked obligations, outlays, and expenditures
allocated to the cooperative agreement. We also determined that the accounting
system in use by the HFP was adequate to record the receipt and expenditure of
the federal funds we reviewed and tested for compliance.




                                          4

Single Audits

       We reviewed the HFP’s Single Audit Reports prepared by an independent
public accounting firm for its fiscal years (FY) 2010, 2011, and 2012. The Single
Audits did not identify any findings or material weaknesses in the HFP’s internal
control environment within the context of our audit objectives

Personnel and Fringe Benefit Expenditures

       We tested a judgmental sample of the HFP’s salary and associated fringe
benefit expenditures to determine if they were allowable, supportable, and
accurate. To determine if expenditures were allowable, we compared the
expenditures to the approved budget for these expenditures incorporated in the
terms and conditions of the cooperative agreement. To determine if expenditures
were supported and accurate, we tested salary and fringe benefit expenditures by
evaluating the allocation of salaries and fringe benefits based on the requirements
identified by OJP in the award document. We examined employee payroll records
for 2 non-consecutive pay periods, and fringe benefit charges for 2 non-consecutive
months. We found all payroll disbursements for salary and fringe benefits tested
were allowable, supported, and accurate.

       The HFP uses a combination of electronic and paper-based timesheets to
document employees’ hours worked. Both the electronic and paper-based
timesheets accurately identified the time the employee worked on a particular grant
or program and evidenced supervisory approval. We reviewed the timesheets,
payroll register, charges for accrued vacation time, and the grant budget to ensure
that the amount charged to the grant was accurate, allowable, and supported. We
found that the salary charges to the award were allowable, supported, and
accurate.

       The HFP received approval for six fringe benefits in its award document:
(1) social security, (2) unemployment insurance, (3) workers compensation,
(4) health/dental/life insurance, (5) retirement, and (6) miscellaneous other fringe
benefits. OJP approved each benefit as a percentage of salary, totaling 27 percent
in the HFP’s original award and 28 percent in the first supplement. According to
HFP’s Finance Director, the percentages submitted in the budget request and
approved by OJP were based on prior year estimates. However, the amount
actually charged to the award was determined by dividing the annual fringe benefits
paid for all employees by the annual salaries paid to all employees for the given
year.

       We compared the budgeted fringe benefit expenditures based on the rates
approved by OJP to the actual fringe benefits charged to the award for those
employees working on the award-funded program. We found that the actual
amount charged to the cooperative agreement exceeded the budgeted amount by
no more than $145 for the 2 months reviewed. Moreover, this exception was
specific to only one of the eight employees we reviewed as part of our fringe benefit




                                         5

testing covering 2 non-consecutive months and not a systemic problem. We
considered the amount to be immaterial and do not report it as a questioned cost.

Other Grant Expenditures

       In general, we found that the HFP properly recorded in the accounting
records the non-personnel and non-fringe benefit expenditures we tested.
Specifically, we selected 25 non-personnel and non-fringe benefit expenditure
transactions, totaling $16,874, for detailed review and analysis. To determine if the
expenditures were properly recorded, we verified that amounts from the invoices
and receipts were accurately recorded in the general ledger under appropriate cost
center codes. To determine if expenditures were allowable, we compared the
expenditures to the award budget, permissible uses of funds outlined in the OJP
Financial Guide, and the terms and conditions of the award. To determine if
expenditures were supported, we reviewed purchase documents, invoices, travel
authorizations, and accompanying accounting system data. We found that the HFP
could not provide specific support for a $327 hotel charge, but we did not consider
this lone exception to be indicative of a systemic weakness nor require the need for
expanded testing. Moreover, we considered the amount immaterial and do not
report it as a questioned cost.

      In addition, we found that after the initial monthly rent and utilities actual
expenditures were charged to the award, HFP charged a budgeted amount of $299
instead of actual amounts for rent and utilities. To arrive at the $299 monthly
charge, the HFP divided the first year’s rent and utilities amount by 12 and charged
that amount to the award monthly. Because utilities expenses may vary from
month to month, we found this practice to be inadequate.

        According to the OJP Financial Guide, adequate accounting systems must
support financial reporting that is accurate. The budgeted amount posted to the
accounting system may not be the correct amount of the charge for that period. In
our judgment, if actual expenditures are not posted to the accounting system, the
accounting system cannot aid in accurate financial reporting and costs charged to
the award may be unsupported. The HFP Finance Director confirmed that the
amount charged was a budgeted, not actual amount. In addition, according to the
HFP Finance Director, the HFP will reconcile the budgeted charges to actual rent and
utilities semiannually. During our review, the HFP had not yet performed any
reconciliations or adjustments to the award for rent and utilities expenditure
charges. However, we also determined from our limited review that the difference
between budgeted rent and utilities and actual expenditures was not material and
do not report it as a questioned cost. We recommend that the HFP charge only
actual expenditures to the cooperative agreement.

Budget Management and Control

      Criteria referenced in the OJP Financial Guide and established in
28 C.F.R 66 § 30 addresses budget controls surrounding awardee financial
management systems. According to the criteria, awardees are permitted to make


                                         6

changes to their approved budgets to meet unanticipated program requirements.
However, the movement of funds between approved budget categories in excess of
10 percent of the total award must be approved in advance by the awarding
agency. In addition, the criteria requires that all awardees establish and maintain
program accounts that will enable separate identification and accounting for funds
applied to each budget category included in the approved award. Budget
management controls ensure federal funds are not exposed to unauthorized
expenses, misuse, and waste.

       OJP approved an itemized budget for the award that included budget
categories for salary, fringe benefits, travel, supplies, consultants/contracts, other,
and indirect costs. 3 The award was still in progress at the time of our audit
fieldwork, but our testing demonstrated that, as of July 2013, the HFP remained
within the approved budget allowances for each budget category.

      According to the Finance Director, the HFP grant program and human
resources staff worked together to formulate the budgets submitted with the
cooperative agreement application. The salaries were based on the salaries paid to
other employees in similar positions within the organization; fringe benefits
amounts were based on the benefits paid for employees within the organization;
and the other line items were estimates based on prevailing costs. In addition, the
HFP created a spreadsheet to track budget versus actual expenditures. The
spreadsheet was updated monthly and reconciled to the accounting system records
to ensure that expenditures stay within the approved budget.

      We compared the total expenditures from the HFP’s accounting records to
the expenditures OJP approved in the Financial Clearance Memorandum
accompanying the award. As of July 2013, the HFP grant expenditures were within
the approved budget categories.

Reporting

Federal Financial Reports

       The financial aspects of the award are monitored through Federal Financial
Reports (FFRs). FFRs are designed to describe the status of award funds and
should be submitted within 30 days of the end of the most recent quarterly
reporting period. For periods when there have been no program outlays, a report
to that effect must be submitted. Funds for the current award or future awards
may be withheld if reports are not submitted or are excessively late.

      We were told the Finance Director completed FFRs using monthly general
ledger reports from the accounting system taking the sum of the expenses for the 3
months in the quarter. We sampled and reviewed five FFRs between January 1,
2012 and March 31, 2013. We concluded that the five reports tested were accurate
because the total expenditures reported in the FFRs agreed with the totals reported

      3
          The “Other” category included costs for cellular phones, rent, and utilities.


                                                    7

in the HFP’s accounting records. We also tested each FFR for timeliness using the
criteria noted above and we found officials submitted each FFR timely.

Progress Reports

       According to the OJJDP Grant Program Specialist, OJJDP award recipients are
instructed to periodically report performance measures in the OJJDP system. The
HFP, however, was exempt from this requirement but was still required to submit
progress reports in accordance with the OJP Financial Guide.

       The OJP Financial Guide states that the progress report is to be prepared
twice a year, and is used to describe the performance of activities or the
accomplishments of objectives as set forth in the approved award
application. Progress reports must be submitted within 30 days after the end of the
reporting periods, which are June 30 and December 31, for the life of the award.

      We reviewed the semi-annual progress reports the HFP submitted, covering
the period January 2011 to December 2012, and found the HFP submitted each
progress report within the required time period specified by the OJP Financial
Guide. The reports included, among other things, a narrative of what the HFP
accomplished during the reporting period and its progress towards meeting the
award’s goals.

Drawdowns

       Drawdown is a term to describe when a recipient requests funding for
expenditures associated with an award program. The OJP Financial Guide
establishes the methods by which DOJ makes payments to awardees. Advances
are allowed, but non-block funding must be used for expenditure disbursements
within 10 days of the transfer funding request.

      At the time of our field work, the HFP had requested funding for $320,081 of
the $750,000 grant, or 43 percent of the award. We examined drawdowns the HFP
made between November 2011 and March 2013. To determine if drawdowns were
completed in advance or on a reimbursement basis, we interviewed the Finance
Director, analyzed bank statements, and reviewed documentation supporting actual
expenditures. We determined that award funds were requested on a
reimbursement basis and the HFP’s drawdown procedures were adequate and
complied with award requirements.

Indirect Costs

      According to the OJP Financial Guide, indirect costs are the costs of an
organization that are not readily assignable to a particular project, but are
necessary to the operation of the organization and the performance of the project.
In order for an awardee to be reimbursed for indirect costs, it must first establish
an appropriate indirect cost rate.




                                          8

       The Department of Health and Human Services (HHS) issued the HFP a
14 percent indirect cost rate in 2007 that was current at the time of our audit
fieldwork. According to the indirect cost rate documents we reviewed, indirect
costs should be computing based on direct salaries and wages including all fringe
benefits.

       We judgmentally sampled 2 months of salary and fringe benefit expenditures
to determine if the HFP charged the award the correct indirect costs. We calculated
the total salary and fringe benefits charged to the award for those 2 months and
applied the corresponding indirect cost rate. We found that the HFP correctly
charged the appropriate indirect costs.

Compliance with Other Award Conditions

       Award requirements are included in the terms and conditions of a
cooperative agreement and special conditions may be added to address special
provisions unique to an award. We reviewed the special conditions found in the
award documents and found that the HFP fully complied with the awards special
conditions within the context of our audit objectives.

Program Performance and Accomplishments

       As previously stated, this cooperative agreement was awarded in conjunction
with the Office of Justice Programs Safe Start Promising Approaches Project. The
Safe Start Promising Approaches Project (S.E.L.F.) supports the development and
study of practice enhancements and innovations to prevent and reduce the impact
of children’s exposure to violence in their homes and communities. The HFP was 1
of 10 grantees elected to participate in a national evaluation using experimental
research designed to test the effectiveness of new approaches to improve outcomes
for children exposed to violence.

       With the award, the HFP was to test the efficacy of integrating S.E.L.F, a
theory-based trauma intervention model, with an existing home-based Early Head
Start Program. According to the program narrative, the goals were to reduce the
incidence and impact of children’s exposure to violence and increase the protective
factors afforded to children by strengthening primary caregivers’ ability to provide
safe, stable, nurturing relationships. To accomplish its goals, the HFP said it would
provide intervention services to 48 families.

       According to the OJJDP Grant Program Specialist for this award, OJJDP
recipients are required to report performance measures in OJJDP’s data reporting
tool, known as DCTAT. The HFP, however, was exempt from this
requirement. Being exempt from submitting DCTAT reports did not release the HFP
from its responsibility to submit progress reports in accordance with the OJP
Financial Guide.

      According to the OJP Financial Guide, progress reports are used to describe
the performance activities or the accomplishments of objectives as set forth in the


                                          9

approved award application. The reports identified 16 categories of quantitative
data that the HFP used to report its program activities. We reviewed the progress
reports submitted for the periods ending June 30 and December 31, 2012, for
accuracy.

       We found that when compared to the supporting documentation, 8 of the
16 categories were inaccurate for the report ending June 30, 2012, and 2 of the
16 categories were inaccurate for the report ending December 31, 2012. According
to HFP officials, the inaccuracies occurred for several reasons, including
misinterpreting the report questions and erroneously calculating the number of
sessions conducted. Because the HFP was participating in a pilot program with
national implications, and data collected was to be used to determine the
effectiveness of the program, we believe it is important to report accurate data on
the progress reports. However, based on the overall supporting documentation
reviewed, we concluded that the HFP was demonstrating progress on achieving the
objectives of the grant.

Conclusion

        We found the HFP generally met the terms and conditions of the award we
reviewed. Specifically, our audit results showed that the HFP used award funds for
their intended purposes, appropriately managed and reported the use of those
funds, and demonstrated progress in meeting the goals and objectives of the
award-funded program.

      However, we found that the HFP charged the grant budgeted amounts
instead of the actual rent and utilities costs incurred. In addition, the HFP
submitted inaccurate data on its progress reports. As a result, we make two
recommendations to address these findings.

Recommendations

We recommend that OJP:

1.	 Ensure that the HFP only charges actual expenditures incurred to the
    cooperative agreement.

2.	 Ensure that the HFP establishes policies and procedures to ensure that complete
    and accurate data is reported on its periodic progress report submissions.




                                        10

                                                                      APPENDIX I



               OBJECTIVE, SCOPE, AND METHODOLOGY

       The purpose of the audit was to determine whether reimbursements claimed
for costs under the cooperative agreement and its supplements were allowable,
supported, and in accordance with applicable laws, regulations, guidelines, and the
terms and conditions of the awards, and to determine program performance and
accomplishments. The objective of our audit was to review performance in the
following areas: (1) internal control environment, (2) personnel and fringe benefit
expenditures, (3) other grant expenditures, (4) budget management and control,
(5) reporting, (6) drawdowns, (7) indirect costs, (8) compliance with other award
conditions, and (9) program performance and accomplishments.

       We conducted this performance audit in accordance with generally accepted
government auditing standards. These standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

        In conducting our audit, we used sample testing while testing award program
expenditures. In this effort, we employed a judgmental sampling design to obtain
broad exposure to numerous facets of the award reviewed, such as high dollar
amounts or expenditure category based on the approved grant budget. This non-
statistical sample design does not allow for the projection of the test results to the
universes from which the samples were selected.

      We audited a total of $750,000 provided through the Office of Justice
Programs awarded to the Health Federation of Philadelphia (HFP). Our audit
concentrated on, but was not limited to the initial award of the grant in October
2010, through the end of our fieldwork in September 2013.

       We tested compliance with what we considered to be the most important
conditions of the award. Unless otherwise stated in our report, the criteria we
audited against are contained in the Code of Federal Regulations: 28 CFR § 66,
Uniform Administrative Requirements for Grants, incorporated in the Office of
Justice Programs Financial Guide, and the award documents. We also reviewed the
HFP’s Single Audit for fiscal years 2010, 2011, 2012 and identified no findings that
could impact the grant funding we audited.

       In conducting our audit, we tested the HFP’s award activities in the following
areas: internal control, personnel and fringe benefits, other expenditures, budget
management and controls, reporting, drawdowns, indirect costs, compliance with
other award conditions, and program performance and accomplishments. In
addition, we reviewed the internal controls of the HFP’s financial management
system specific to the management of DOJ funds during the award period under
review. However, we did not test the reliability of the HFP’s financial management
system as a whole. We also performed limited tests of source documents to assess



                                         11

the accuracy and completeness of reimbursement requests, Federal Financial
Reports, and progress reports.




                                       12

                                                                                                   APPENDIX II

HEALTH FEDERATION OF PHILADELPHIA RESPONSE TO THE
               DRAFT AUDIT REPORT




                      The
                      HEALTH FEDERATION
                      of Philadelphia


    Thomas O. Puezer
    Regional Audit Ma nager
    Philadelphia Regional Audit Office
    Office of the Inspector General
    US Dept. of Justice
    701 Market Street, Suite 201
    Philadelphia, PA 19106


    Oear Mr. Puezer:


    The Health,Federation of Philadelphia is in receipt of and has reviewed the draft audit report of the
    Health Federation Safe Start Project, agreement number 2010-JW-FX-K011.


    We concur with the recommendations in the report and following our are plans for corrective action.
    We have no other comments or requested changes to the report

    Recommendation 1 - Ensure that Health Federation of Philadelphia (HFP) only charges actual
    expend itures incurred to the coopera tive agreement.

    HFP Response: HFP has reconciled the amounts charged to the cooperative agreement. The rent
    expense that was allocated to the cooperative agreement for the first year was, in fact, actual expenses
    summarized from the previous twelve months. Our estimate for rent and utilities for subsequent
    months was made monthly, using the prior year actual expenses and charged to the grant monthly
    beginn ing in December 2012. We have since reconciled those amounts to reflect the actual expenses
    incurred. HFP has also changed our procedure to charge rent and utilities based on the actual expenses
    incurred, rather than using an estimated amount.

    Recommendation 2 - Ensure that HFP establishes policies and procedures to ensure that complete and
    accurate data is reported on its periodic progress report submissions

    HFP Response: HFP has put several measures in order to ensure that accurate reporting is occurring on
    an ongoing basis .

            1.   HFP has clarified with RAND, the organization conducting the cross·site evaluation, and with
                 the DOJ Project Officer the precise interpretation of each data category
            2.   HFP has revamped its internal excel database which is used to capture real time data that
                 goes into the semi·annual report in order to more accurately t rack data that is required for
                 the report
            3.   HFP has put into place a mechanism whereby the Enhanced Home Visitation Specialists are
                 communicating weekly with the Evaluation Specialist about all of their scheduled and

    1211 Chestnut Street              WtfW.healthfederation.org
    Suite 801                         215.5 67. 8001
   1Philadelphia, PA 19107            1
                                      215.567 .7743 FAX




                                                          13

           completed selVice sessions . This serves as a double check for the information which is
           maintained in the clinical charts.

We hope this addresses all of the concerns and recommendations outlined in the audit. Please feel free
to contact me if you need any additional information.




I~Y~
Health Federation of Philadelphia
1211 Chestnut, Suite 801
Philadelphia, PA 19107




                                                  14

                                                                                        APPENDIX III


OFFICE OF JUSTICE PROGRAMS RESPONSE TO THE DRAFT

                   AUDIT REPORT

                                                     U.S. Department or Justice

                                                     Office ofJustice Programs

                                                    Office ofAudit, Assessment, and Management


                                                    W""'/ngI<m, D.C 2(1:;]/

    MAR 10 1014


   MEMORANDUM TO:                Thomas O. i'uer.rer
                                 Regional Audit Manager
                                 Philadelphia Regional Audit Office
                                 Office of the Inspector General

                               Ad ~ 'a: -{1. Wh'~
                               ~~ _ Johnsqp'V ,.
   FROM:
                               Acting Director

   SUBJECT:                      Response to the Draft Audit Report, Audit of/he Office of
                                 Justice Programs Cooperative Agreement Administered by the
                                 Health Federation o[ Philadelphia
                                 Phi/adelphia, Pennsylvania

   This memorandum is in reference to your correspondence, dated February 28, 2014, transmitting
   the above-referenced draft audit report for the Health Feder-ltion of Pennsylvania (HFP). We
   consider the subject report resolved and request writtl::ll accl::ptance of this action from your
   office.

   The draft report contains two recommendations and no questioned costs. The following is the
   Office of Justice Programs' (OJP) allalysis of the draft audit report recommendations. For ease
   of rev iew, the recommendations arc restated in bold and are followed by our response.

   I.      We r ecommend that OJP ensure that HI<' I' only charges actual expenditures
           incurred to the cooperative agreement.

           OJP agrees with the recommendation. We will coordinate with HFP to obtain a
           copy of policies and procedures developed and implemented to ensure that only actual
           expenditures incurred are charged to the cooperative agreement.

   2.      We recommend that 0.11' ensure that HFI' establishes policies and procedures tu
           ensure that complete and accurate data is reported on its periodic progress report
           submissiuns.

           OJ I' agrees with the recommendation. We will coordinate with HFP to obtain a copy of
           policies and procedures developed and implemented to ensure that data reported on future
           semi-annual progress reports is complete and accurate.




                                                  15

We appreciate the opportunity to review and comment on the draft audi t report. Tfyou have any
questions or require additional infonnation, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616-2936.

ce:    Jeffery A. Haley
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management

       Robert L. Listenbee
       Administrator
       Office of Juvenile Justice and Delinquency Prevention

       Chryl Jnnes
       Deputy Administrator
       Office of Juvenile Justice and Delinquency Prevention

       Amy Callaghan
       Special Assistant
       Office of Juvenile Justice and Delinquency Prevention

       Kristen Kracke
       Grant Program Specialist
       Office of Juvenile Justice and Delinquency Prevention

       Leigh A. Benda
       Chief Financial Officer

       Christal McNeil-Wright
       Associate Chief Financial Officer
       Grants Financial Management Division
       Office of the Chief !'inaneial Officer

       Jerry Conty
       Assistant Chief Financial Officer
       Grants Financial Management Division
       Office of the Chief Financial Officer

       Lucy Mungle
       Manager, Evaluation and Oversight Division
       Grants Financial Management Division
       Office of the Chief Financial Officer

       Rid41rd P. Theis
       Assistant Director, Audit Liaison Group
       Internal Review and Evaluation Office
       Justice Management Division




                                                16

cc:   DIP Executive Secretariat
      Control Number 1'1'20 140304081915




                                           17

                                                                   APPENDIX IV


OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND SUMMARY
       OF ACTIONS NECESSARY TO CLOSE THE REPORT

        The OIG provided a draft of this audit report to the Health Federation of
Philadelphia (HFP) and the Office of Justice Programs (OJP). The HFP’s response is
incorporated in Appendix II and OJP’s response is incorporated in Appendix III of
this final report. The following provides the OIG analysis of the responses and
summary of actions necessary to close the report.

Recommendation:

   1.	 Ensure that the HFP only charges actual expenditures incurred to the
       cooperative agreement.

      Resolved. The HFP and OJP concurred with our recommendation. The HFP
      stated in its response that it has reconciled the rent and utilities amounts to
      reflect the actual expenses incurred and has changed its procedure to charge
      rent and utilities based on the actual expenses incurred, rather than using an
      estimated amount.

      This recommendation can be closed when we receive documentation showing
      the reconciliation of the rent and utilities amounts and the implementation of
      the revised procedure for charging rent and utilities based on actual
      expenses.

   2.	 Ensure that the HFP establishes policies and procedures to ensure
       that complete and accurate data is reported on its periodic progress
       report submissions.

      Resolved. The HFP and OJP concurred with our recommendation. The HFP
      stated in its response that it has implemented several measures to ensure
      that accurate reporting is occurring on an ongoing basis.

      This recommendation can be closed when we receive documentation of the
      policies and procedures developed and implemented to ensure that data
      reported on future semi-annual progress reports is complete and accurate.




                                        18

